     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106

September 10, 2010

Report Number: A-07-10-00338

Ms. Nancy Donaldson
Vice President Medicare Contract Administration
Health Care Service Corporation
R13A-5.413
1001 E. Lookout Drive
Richardson, TX 75082

Dear Ms. Donaldson:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Pension Costs Claimed for Medicare
Reimbursement by Blue Cross Blue Shield of Oklahoma for Fiscal Years 2000 Through 2008.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-10-00338
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Nancy Donaldson

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL


 REVIEW OF PENSION COSTS
  CLAIMED FOR MEDICARE
    REIMBURSEMENT BY
BLUE CROSS BLUE SHIELD OF
OKLAHOMA FOR FISCAL YEARS
   2000 THROUGH 2008




                      Daniel R. Levinson
                       Inspector General

                       September 2010
                        A-07-10-00338
                                                                                                DRAFT

                         Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.




                                                     i
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Oklahoma (Oklahoma), a division of Group Health Service of
Oklahoma (GHSO), administered Medicare Part A operations under cost reimbursement
contracts with the Centers for Medicare & Medicaid Services (CMS) until GHSO merged with
Health Care Service Corporation (HCSC) on November 1, 2005. On December 29, 2006, HCSC
merged the Non-Contributory Retirement Program for Certain Employees of Group Health
Service of Oklahoma, Inc., into the HCSC Employee Pension Plan.

Pursuant to a novation agreement, HCSC assumed GHSO’s Medicare contracts and administered
the contract under HCSC’s Oklahoma division until the contractual relationship terminated
effective February 29, 2008. The closing date for the Medicare segment was February 29, 2008.
Thus, although we are addressing this report to HCSC, we will associate the term Oklahoma with
our finding and recommendation regarding the pension costs claimed for Medicare
reimbursement during fiscal years (FY) 2000 through 2008.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards, and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that Oklahoma claimed for
Medicare reimbursement for FYs 2000 through 2008.

SUMMARY OF FINDING

Oklahoma did not claim $551,039 of allowable Medicare pension costs on its Final
Administrative Cost Proposals (FACP) for FYs 2000 through 2008, primarily because Oklahoma
did not claim pension costs for Medicare reimbursement from January 2007 through February
2008. Oklahoma claimed pension costs of $2,896,579 for Medicare reimbursement; however,
we determined that the allowable Cost Accounting Standards pension costs were $3,447,618.

RECOMMENDATION

We recommend that Oklahoma revise its FACPs for FYs 2000 through 2008 to claim the
additional allowable pension costs of $551,039.




                                                i
AUDITEE COMMENTS

In written comments on our draft report, Oklahoma concurred with our recommendation.
Oklahoma’s comments are included in their entirety as Appendix B.




                                             ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
              Blue Cross Blue Shield of Oklahoma ................................................................. 1
              Medicare Reimbursement ................................................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 1
               Objective ............................................................................................................. 1
               Scope ................................................................................................................... 1
               Methodology ....................................................................................................... 2

FINDING AND RECOMMENDATION ................................................................................ 2

          FEDERAL REQUIREMENTS ....................................................................................... 3

          ALLOWABLE PENSION COSTS NOT CLAIMED .................................................... 3

          RECOMMENDATION .................................................................................................. 4

          AUDITEE COMMENTS................................................................................................ 4

APPENDIXES

          A: ALLOWABLE MEDICARE PENSION COSTS FOR BLUE CROSS BLUE
             SHIELD OF OKLAHOMA FOR FISCAL YEARS 2000 THROUGH 2008

          B: AUDITEE COMMENTS




                                                                     iii
                                       INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Oklahoma

Blue Cross Blue Shield of Oklahoma (Oklahoma), a division of Group Health Service of
Oklahoma (GHSO), administered Medicare Part A operations under cost reimbursement
contracts with the Centers for Medicare & Medicaid Services (CMS) until GHSO merged with
Health Care Service Corporation (HCSC) on November 1, 2005. On December 29, 2006, HCSC
merged the Non-Contributory Retirement Program for Certain Employees of Group Health
Service of Oklahoma, Inc., into the HCSC Employee Pension Plan.

Pursuant to a novation agreement, HCSC assumed GHSO’s Medicare contracts and administered
the contracts under HCSC’s Oklahoma division until the contractual relationship terminated
effective February 29, 2008. The closing date for the Medicare segment was February 29, 2008.
Thus, although we are addressing this report to HCSC, we will associate the term Oklahoma with
our finding and recommendation regarding the pension cost claimed for Medicare
reimbursement during fiscal years (FY) 2000 through 2008.

Medicare Reimbursement

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with FY 1988, CMS incorporated specific segmentation language into Medicare
contracts that requires contractors to use either an allocation method or a separate calculation
method to identify and claim pension costs for Medicare reimbursement. Under the allocation
method, the contractor determines total plan CAS pension costs and allocates a share to
Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that Oklahoma claimed for
Medicare reimbursement for FYs 2000 through 2008.

Scope

We reviewed $2,896,579 of pension costs that Oklahoma claimed for Medicare reimbursement
on its Final Administrative Cost Proposals (FACP) for FYs 2000 through 2008. Achieving our



                                                1
objective did not require that we review Oklahoma’s overall internal control structure. However,
we reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed fieldwork at Oklahoma’s office in Tulsa, Oklahoma, during December 2008.

Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contracts. Additionally,
we reviewed Oklahoma’s FACPs to identify the amount of pension costs claimed for Medicare
reimbursement for FYs 2000 through 2008. We also determined the extent to which Oklahoma
funded CAS pension costs with contributions to the pension trust fund and accumulated
prepayment credits. We based our calculations on separately computed CAS pension costs for
the Medicare segment and the “Other” segment. The CMS Office of the Actuary calculated the
allocable CAS pension costs based on Oklahoma’s historical practices and on the results of our
segmentation review (Review of the Qualified Pension Plan at Blue Cross Blue Shield of
Oklahoma, a Terminated Medicare Contractor, for the Period January 1, 1999, to
February 29, 2008, A-07-10-00337).

In performing our review, we used information that Oklahoma’s actuarial consulting firms
provided. The information included assets, liabilities, normal costs, contributions, benefit
payments, investment earnings, and administrative expenses. We examined Oklahoma’s
accounting records, pension plan documents, annual actuarial valuation reports, and Department
of Labor/Internal Revenue Service Forms 5500.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATION

Oklahoma did not claim $551,039 of allowable Medicare pension costs on its FACPs for FYs
2000 through 2008, primarily because Oklahoma did not claim pension costs for Medicare
reimbursement from January 2007 through February 2008. Oklahoma claimed pension costs of
$2,896,579 for Medicare reimbursement; however, we determined that the allowable CAS
pension costs were $3,447,618.




                                               2
FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

ALLOWABLE PENSION COSTS NOT CLAIMED

Oklahoma did not claim $551,039 of pension costs that were allowable for Medicare
reimbursement for FYs 2000 through 2008. 1 During FYs 2000 through 2008, Oklahoma
claimed pension costs of $2,896,579 for Medicare reimbursement. We calculated the allowable
pension costs based on separately computed CAS pension costs for the Medicare segment and
the “Other” segment in accordance with CAS 412 and 413. We determined that the allowable
CAS pension costs for FYs 2000 through 2008 were $3,447,618.

The table on the following page compares allowable CAS pension costs with the pension costs
claimed on Oklahoma’s FACPs. Appendix A contains additional details on allowable pension
costs.




1
 The allowable pension costs for FY 2008 were attributable to the pension costs for October 1, 2007, through
February 29, 2008.


                                                        3
           Comparison of Allowable Pension Costs and Claimed Pension Costs

                                  Medicare Pension Costs
                                  Allowable Claimed by
                   Fiscal Year    Per Audit   Oklahoma        Difference
                      2000           $73,071    $137,873       ($64,802)
                      2001           148,810     146,468             2,342
                      2002           270,937     229,826            41,111
                      2003           497,935     512,273         (14,338)
                      2004           516,437     523,324           (6,887)
                      2005           569,853     604,736         (34,883)
                      2006           586,204     574,901            11,303
                      2007           564,853     167,178          397,675
                      2008           219,518            0         219,518
                      Total       $3,447,618 $ 2,896,579        $551,039

This underclaim occurred primarily because Oklahoma did not claim pension costs for Medicare
reimbursement from January 2007 through February 2008. As a result, Oklahoma did not claim
$551,039 of allowable pension costs.

RECOMMENDATION

We recommend that Oklahoma revise its FACPs for FYs 2000 through 2008 to claim the
additional allowable pension costs of $551,039.

AUDITEE COMMENTS

In written comments on our draft report, Oklahoma concurred with our recommendation.
Oklahoma’s comments are included in their entirety as Appendix B.




                                             4
APPENDIXES
                          APPENDIX A: ALLOWABLE MEDICARE PENSION COSTS FOR                               Page I of6
                                 BLUE CROSS BLUE SHIELD OF OKLAHOMA 

                                  FOR FISCAL YEARS 2000 THROUGH 2008 


                                                              Total        "Other"       Medicare          Total
     Date                    Description                     Company       Segment       Segment          Medicare

     1999            Allocable Pension Cost         .u 	                   $1,849,045      $99,474

     2000            Contributions                  'lJ.     $1,984,950    $1,964,357      $20,593 

    9.00%            Discount for Interest          3/        ($155,241)    ($153,630)     ($1,611 ) 

January 1,2000       Present Value Contributions    1L       $1,829,709    $1,"810,727     $18,982
                    ,Prepayment Credit Applied      5/         $690,315      $666,074      $24,241
                     Present Value of Funding       §L       $2,520,024    $2,476,801      $43,223

January 1,2000        CAS Funding Target            1L       $1,230,912    $1,187,688      $43,224
                     ,Percentage Funded             ~                         100.00%      100.00%
                      Funded Pension Cost           2!..                   $1,187,688      $43,224
                      Allowable Interest           10/                        $33,253       $1,210
                      Allocable Pension Cost       II(                     $1,220,941      $44,434
     2000             Fiscal Year Pension Cost     12f,                    $1,377,967      $58,194
                    .~Medicare LOB* PercentCige    I}L                          1.23%       96.44%

                     Allowable Pension Cost        1.~/. 	                    $16,949      $56,122           $73,071

     2001            Contributions                           $7,527,637    $7,455,088      $72,549 

    9.00%            Discount for Interest                    ($605,015)    ($599,184)     ($5,831 ) 

January 1,200 I 	    Present Value Contributions             $6,922,622    $6,855,904      $66,718
                     Prepayment Credit Applied               $1,405,131    $1,327,675      $77,456
                     Present Value of Funding                $8,327,753    $8,183,579     $144,174

January I, 200 I     CAS FundingTarget                       $2,615,479    $2,471,305     $144,174
                     Percentage Funded                                        100.00%      100.00%
                     Funded Pension Cost                                   ~2,4?1}05      $144!174
                     Allowable Interest                                       $72,906       $4,253
                     Allocable Pension Cost                                $2,544,211     $148,427
     2001            Fiscal Year Pension Cost                              $2,213,394     $122,429
                     Medicare LOB* Percentage                                   1.49%       94.61%

                     Allowable Pension Cost 	                                 $32,980     $115,830          $148,810
                                                                                          Page 2 of6


                                                 Total         "Other"        Medicare      Total
     Date                 Description           Company        Segment        Segment      Medicare

     2002         Contributions                 $14,100,000    $14,100,000           $0
    9.00%         Discount for Interest         ($1,164,220)   ~$1,164,220)          $0
January 1,2002    Present Value Contributions   $12,935,780    $12,935,780           $0
                  Prepayment Credit Applied      $4,459,124     $4,190,855     $268,269
                  Present Value of Funding      $17,394,904    $17,126,635     $268,269

January 1,2002    CAS Funding Target             $4,459,124     $4,190,855     $268,269
                  Percentage Funded                                100.00%      100.00%
                  Funded Pension Cost                           $4,190,855     $268,269
                  Allowable Interest                                    $0           $0
                  Allocable Pension Cost                        $4,190,855     $268,269
     2002         Fiscal Year Pension Cost                      $3,?79,194     $?38,~O9
                  Medicare LOB* Percentage                           1.12%       95.93%

                  Allowable Pension Cost                          $42,327      $228,610      $270,937

     2003         Contributions                 $22,000,000    $22,000,000           $0
    8.50%         Discount for Interest         ($1,723,502)   ($1,723,502)          $0
January I, 2003   Present Value Contributions   $20,276,498    $20,276,498           $0
                  Prepayment Credit Applied      $7,363,638     $6,896,439     $467,199
                  Present Value of Funding      $27,640,136    $27,172,937     $467,199

January 1, 2003   CAS Funding Target             $7,363,638     $6,896,439     $467,199
                  Percentage Funded                                100.00%      100.00%
                  Funded Pension Cost                           $6,896,439     $467?199
                  Allowable Interest                                    $0           $0
                  Allocable Pension Cost                        $6,896,439     $467,199
     2003         Fiscal Year Pension Cost                      $6,220,043     $417,467
                  Medicare LOB* Percentage                           1.54%       96.33%

                  Allowable Pension Cost                           $95,789     $402,146      $497,935
                                                                                          Page 3 of6


                                                 Total         "Other"        Medicare      Total
     Date                 Description           Company        Segment        Segment      Medicare

     2004         Contributions                 $13,500,000    $13,500,000           $0
    8.50%         Discount for Interest         ($1,057,604)   ($1,057,604)          $0
January 1, 2004   Present Value Contributions   $12,442,396    $12,442,396           $0
                  Prepayment Credit Applied      $7,956,474     $7,487,796     $468,678
                  Present Value of Funding      $20,398,870    $19,930,192     $468,678

January 1, 2004   'CAS Funding Target            $7,956,474     $7,487,796     $468,678
                   Percentage Funded                               100.00%      100.00%
                   Funded Pension Cost                          $7,487,796     $468,678
                   Allowable Interest                                   $0           $0
                   Allocable Pension Cost                       $7,487,796     $468,678
     2004          Fiscal Year Pension
                                ..     Cost                     $7,339,957     $468,308
                   Medicare LOB* Percentage                          1.05%       93.82%

                  Allowable Pension Cost                          $77,070      $439,367      $516,437

     2005         Contributions                 $13,000,000    $13,000,000           $0
    8.00%         Discount for Interest           ($962,963)     ($962,963)          $0
January 1, 2005   Present Value Contributions   $12,037,037    $12,037,037           $0
                  Prepayment Credit Applied      $9,638,005     $9,078,975     $559,030
                  Present Value of Funding      $21,675,042    $21,116,012     $559,030

January 1, 2005   CAS Funding Target             $9,638,005     $9,078,975     $559,030
                  Percentage Funded                                100.00%      100.00%
                  Funded Pension Cost                           $9,078,975     $559,030
                  Allowable Interest                                    $0           $0
                  Allocable Pension Cost                        $9,078,975     $559,030
     2005         Fiscal Year Pension Cost                      $8,681,180     $536,442
                  Medicare LOB* Percentage.                          0.81%       93.12%

                  Allowable Pension Cost                           $70,318     $499,535      $569,853
                                                                                            Page 4 of6


                                                  Total          "Other"        Medicare      Total
     Date                 Description            Company         Segment        Segment      Medicare

     2006         Contributions                   $6,000,000      $6,000,000           $0
    8.00%         Discount for Interest            ($122,444)      ($122,444)          $0
January 1, 2006   Present Value Contributions     $5,877,556      $5,877,556           $0
                  Prepayment Credit Applied      $10,347,124      $9,776,366     $570,758
                  Present Value of Funding       $16,224,680     $15,653,922     $570,758

January 1, 2006   CAS Funding Target             $10,347,124      $9,776,366     $570,758
                  Percentage Funded                                  100.00%      100.00%
                  Funded Pension Cost                             $9,776,366     $570,758
                  Allowable Interest                                      $0           $0
                  Allocable Pension Cost                          $9,776,366     $570,758
     2006         Fiscal Year Pension Cost                        $9,602,018     $567,826
                  Medicare LOB* Percentage                             0.26%       98.84%

                  Allowable Pension Cost                             $24,965     $561,239      $586,204

     2007         Contributions                  $77,950,000     $77,950,000           $0
    8.00%         Discount for Interest          ($2,845,464)    ($2,845,464)          $0
January I, 2007   Present Value Contributions    $75,104,536     $75,104,536           $0
                  Prepayment Credit Applied      $43,226,125     $42,871,296     $354,829
                  Present Value of Funding      $118,330,661    $117,975,832     $354,829

January I, 2007   CAS Funding Target             $43,226,125     $42,871,296     $354,829
                  Percentage Funded                                  100.00%      100.00%
                  Funded Pension Cost                            $~2,871,296     $354,829
                  Allowable Interest                                      $0           $0
                  Allocable Pension Cost                         $42,871,296     $354,829
     2007         Fiscal Year Pension Cost                      . ~3~~597!5~4    $~O8,811
                  Medicare LOB* Percentage                              0.46%      99.24%

                  Allowable Pension Cost                           $159,149      $405,704      $564,853
                                                                                                                         Page 5 of6


                                                                Total               "Other"             Medicare           Total
          Date                    Description                  Company              Segment             Segment           Medicare

         2008             Contributions                         $12,900,000         $12,900,000                 $0 

        8.00%            'Discount for Interest                   ($539,602) ,        ($539,602)                $0 

    January I, 2008       Present Value Contributions           $12,360,398         $12,360,398                 $0 

                          PrePClyment Credit Applied            $12,623,153         $12,560,497            $62,656 

                          Present Value of Funding              $24,983,551         $24,920,895            $62,656 


    January 1,2008 	     CAS Funding Target                     $12,623,153         $12,560,497            $62,656 

                         Percentage Funded                                              100.00%            100.00% 

                         Funded Pension Cost                                        $12,560,497            $62,656 

                         Allowable Interest                                                  $0                 $0 

                         Allocable Pension Cost         l2L                         $12,560,497            $62,656 

          2008 	         Fiscal Year Pension Cost       16/                         $23,278,321           $151,363
                         Medicare LOB* Percentage                                         0.30%             98.89%

                         Allowable Pension Cost 	                                        $69,835          $149,683           $219,518



   * Line of business.

FOOTNOTES

lL 	We obtained the 1999 calendar year allocable pension from our prior review (A-07-01-00 121; issued July 17, 2001).

fL 	 We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports.      The
   contributions included deposits made during the plan year and accrued contributions deposited after the end of the plan year but
   within the time allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the
   pension segmentation review (A-07-1 0-00337). The amounts shown for the "Other" segment represent the difference between
   the Total Company and the Medicare segments.

JL 	 We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount
   the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the
   difference between the present value of contributions (at the valuation interest rate) and actual contribution amounts.

1t' The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of
   the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan year to have been made on the
   final day of the plan year, consistent with the method mandated by the Employee Retirement Income Security Act.
                                                                                                                            Page 6 of6


 ~     A	 prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is
       created when contributions, plus interest, exceed the end-of-year Cost Accounting Standards (CAS) funding target. A
       prepayment credit is carried forward, with interest, to fund future CAS pension costs.

 §L 	 The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of 

      funding that is available to cover the CAS funding target measured at the first day of the plan year. 


 71    The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the Federal 

       Acquisition Regulation (FAR) 31.20S-6U)(2)(i). 


 ~     The
        	   percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the plan year.
       Because any funding in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.S0(c)(1)
       (as amended), the funded ratio may not exceed 100 percent. We computed the percentage funded as the present value of
       funding divided by the CAS funding target. For purposes of illustration, the percentage offunding has been rounded to four
       decimals.

 2!.. We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

lQL We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same proportion as the
       interest on contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR
       31.20S-6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding
       target, less the prepayment credit, were funded in four equal installments deposited within 30 days after the end of the quarter.

ill The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.

12/ We converted the plan year (January 1 through December 31) allocable pension costs to a fiscal year (FY) basis (October 1
    through September 30). We calculated the FY pension costs as 1/4 of the prior year's costs plus 3/4 of the current year's costs.

l.JL   We calculated allowable pension costs of the Medicare and "Other" segments based on the Medicare line of business (LOB)
       percentage of each segment. We determined the LOB percentages based upon information provided by Blue Cross Blue Shield
       of Oklahoma (Oklahoma).

14/ We computed the allowable Medicare pension cost as the FY pension cost multiplied by the Medicare LOB percentage.
    Pursuant to CAS 412 and 413, the total Medicare allowable pension costs charged to the Medicare contract consisted of the
    Medicare segment's direct pension costs plus "Other" segment pension costs attributable to indirect Medicare operations.

12 Oklahoma terminated its Medicare contract on February 29,2008.          Therefore, the 2008 allocable pension costs were for a 2­
       month period only (January 1 through February 29).

16/ The 2008 fiscal year pension costs were for a S-month period. To calculate the FY 2008 allocable pension costs, we calculated
    the FY pension costs as 1/4 of the prior year's costs plus all of the current year's costs (January I through February 29).
                                                                                                                                                         Page 1 of 3


                              APPENDIX B: AUDITEE COMMENTS 





Via UPS and Email via pdf attachment


August 20, 2010
                                                                 ... 

                                                         BlueCross BlueShield
                                    Of Illinois, New Mexico, Oklahoma and Texas
Patrick J. Cogley, Regional Inspector General for Audit Services
U.S. Department of Health & Human Services
Office of Inspector General Office of Audit Services
Region VII
601 East 12'" street
Room 0429
Kansas City, Missouri 64106                                 Email: PCogley@OIG.HHS.GOV



Subject: Draft Report Response and Comments
         Reports Number A-07-10-00337 and Number A-07-10-00338 respectively entitled
         Review of Qualified Pension Plan at Blue Cross Blue Shield of Oklahoma, a Terminated
                    Medicare Contractor, for the Period January 1, 1999 to February 29, 2008
                                               And
         Review of Pension costs Claimed for Medicare Reimbursement by Blue Cross Blue Shield
                   of Oklahoma for Fiscal Years 2000 Through 2008


Dear Mr. Cogley

Your June 29, 2010 letter(s) conveying the draft reports requested that (in order to properly consider our views on
the validity of the facts and reasonableness of the recommendations) we provide written comments within 30
days. Based on further interchange with your audit team your office granted an extension for reply until August
20,2010

Your letter requests explicit concurrence, including actions taken or non-concurrence, including reasons and
alternatives for the recommendation(s) of each audit

Due to the nature of these type contract termination pension segment closing and settlement audits, our
interactive work with the audit team assigned and the structured approach taken in the audit recommendations,
our response is summarized at a higher level joining the substance and overarching recommendations across
both audits since the outcomes are interrelated. We do also include clarifying and supporting descriptions

Based on the interlocking approach of the audits as represented in reviews with both the Office of Audit Services
staff and the Office of Actuary representatives (OIG), we concur that HCSC (Health Care Service Corporation, a
Mutual Legal Reserve Company)(aka Oklahoma perthe audit drafts) both: a) Claims the additional allowable
pension costs of $551, 039 for the periods from FY 2000 through 2008 ($551,039 is taken directly from the
recommendation contained within the A-07-10-0338 draft report-osee attachment); and b)Submits the request for
reimbursement of $899,827 for Medicare's share of the excess pension liabilities resulting from the segment
closing calculations ($899,827 is based directly on the estimated $611,120 stated in the recommendation within
the A-07-10-00337 draft report, adjusted in agreement with OIG to reflect the effects of the final Medicare
segment liabilities which OIG initially estimated in the draft-osee attachment).

The recommendation amount related to A-07-10-0337 is adjusted because the final accrued Medicare Segment
liability ($3,698,163) used in the draft report (work papers) to compute the segment closing adjustment was based
on OIG estimation. Subsequent to the issuance of the draft report, HCSC (aka Oklahoma per the audit drafts)
and Towers Watson & Company Co. (actuarial consultants) provided (and reached agreement with OIG) OIG the
actual Medicare segment final accrued liabilities of $3,997,528 as of 2-29-2008, calculated based on the
approach OIG employed in the audit (see attachment). The difference in the liability measurement flows into the
difference in the settlement amount due in the recommendation of draft A-07 -10-0337 Except for revision in the
final segment closing amounts as a result of the revision to the final accrued liabilities, the balance of the reports
did not change.


 Divl:ii"Jns of Health Care Sen'ice Corporation. a Mutual Legal Reserve Company, an Independent Llcc-nsee of the Blue Cros!> and Blue Shield   ASSOclBtKln
                                                                                                                                                       Page 2 of 3




Page 2 letter dated August 20, 2010
Patrick J, Cogley, Regional Inspector
General for Audit Services
                                                                 +...
                                                 BlueCross BlueShield
                                    OfIlIinois, New Mexico, Oklahoma and Texas

Beyond the primary summary recommendations of the draft reports (coupled in approach) as concurred above,
the majority of the balance of the information or 'sub-recommendations" in the reports are technically correct
realignments related to OIG strict approach and technique differences versus the initial HCSC/Okiahoma draft
settlement. building up to the end results.                                                          .

Other than the adjustments for a few partiCipant segment assignment and transfer method differences that were
corrected by the OIG audit team (which HCSC/Okiahoma had captured differently), the end-of-segment­
settlement technique HCSC/Okiahoma initially drafted for OIG review would have lead to a similar net-net overall
settlement dollar amount result across the draft audits (plus or minus the less material amounts the OIG team
recalculated related to annual CAS cost allocation differences for 2000-2006 in A-07 -10-0338),

So that the Draft response will clarify/document the point of interpretive difference between how HCSC/Okiahoma
approached the segment ending and why OIG methodically recast the results leading to the final draft
recommendations, the primary approach difference was that HCSC/Okiahoma initially created an interim close
ouVsetllement of related pension matters as of 12-31-06.

HCSC/Okiahoma initially selected a 12-31-2006 settlement date because we had forecasted (and ultimately our
forecast turned out to be correct) that we would not be actively pursuing Medicare Part A&B business after
2006. Because HCSC did not actively pursue Medicare Part A&B business after 2006, we concluded under the
prevailing circumstances that HCSC would not seek reimbursement from CMS for pension related costs incurred
by the Medicare segment after 2006 and therefore the pension liabilities should be settled at 12-31-2006 rather
than the actual contract termination date. The OIG Audit and Actuarial team instead determined that the
regulations reqLlire the settlement to be as of the contract end date, 2-29-2008, and that based on advancing the
previous Medicare pension segment components to 2-28-2008 methodically, HCSC was therefore entitled to
reimbursement of pension costs incurred during the period from 12-31-2006 through 2-29-2008. II is our
understanding thaI OIG accepted HCSC's rationale for selecting the 12-31-2006 date as reasonable and logical
but ultimately concluded that the regulations and precedent did not, and do not, provide for any discretion on the
selection of the settlement date. HCSC accepted the OIG determination, agreed 10 the revised basis presented in
the audit drafts as reflected in the draft recommendations, and agreed thaI the audits and closing of the pension
related matters should be final.


We appreciate the professionalism and cooperation of the OIG while working on these matters. We request that
the two draft audits (A-07 -10-00337 and A-07 -10-00338) be finalized now as updated with the derived
reimbursement amounts (as adjusted per the above) due from CMS to HCSC (approximately $1,450,866 sum of
the above) being either wired directly to HCSC or credited to the overall BCBSOK Medicare Contract global
closing agreement settlement


Thank you.

Gene George, Executive Director Treasury, HCSC
and

Nancy Donaldson. Vice President Medicare Conlract Administration, HCSC

A02-012 or B13A-5,413
1001 E. Lookout Drive
Richardson, Texas 75082
972-766-6192 or 972-766-1664


attachment: (page 3) one page reference support to paragraphs four and five above

 DivisiOn:) of Health (arc Service C()rporation, a Mutual Legal Reserve Company, an Independent Licensee of the Blue Cross and Blue Shield A'i~)(:latlon
                                                                                                                 Page 3 of 3




     Attachment to August 20,2010 Draft Report Response and Comments Letter 

          Reports Number A-07-1 0-00337 and Number A-07 -10-00338 


               Comparison of Allowable Pension Costs lind Claimed Pension Costs
                       1-..----------­
                       I                        Medicare Pension Costs
                       I
                       !                        Allowtlble Claimed by                       II
                       I   Fis~I!I   Y f.'tH"   Per Audit    Oldahoffill      Dift'erencl'  I
                               2()OO               $73,071     $137,873        ($64,S02) I
                               200l                148,810      146,468              ., 14") I
                                                                                     -,- ~ I
                               2002                270,937      229,826            41,111 '
                               2003                497,935      512,273          (14,338)
                               200~                516,437      523,324            (6,887)
                               2005                569,853      604,736          (34,883)
                               2006                586,204      574,90 I            11,303
                               2007                564,853      167,178           397,675
                               :?OO8               219,5 J 8            0         219,518 !
                       ~tal                     $3,4~_~,g!i_.J}·?2_§,579            $S51~039;
                       ~------

   11110 l:!1'.krcla!rn "c,:urrec! 01'!llll1rily bCct\\ISe Oklahoma did not claim pension CI)Sts for \1dlc'Jre
  r\:lrnbu!")ernent t"rol11 Janunry 2007 thruugh Febni:1rY 2008 As a result. Okiaholllil did not ci,llm
  ')551,0:,9 urallowable pensivn costs.




Bess of Oklahoma Pension Plan    Settlement of Medicare Segment Pension liability

                                                                     OIG Calwlation HCSC    Calculatlo~


       1 Medicare Segment Benefit Liabilities at 212812008               3,696,163           3997,528
       2 Unallowed                                                          30.'100            30,100
       3 Net I'ability 1 - 2                                             3,668.063           3,967.428
       4 Medicare Segment Assets at 212812008                            3,034,384           3,034384
         Unfunde0 6enefilliabilltles 3 - 4                                 633,679             933.044
       6 Medicare Segment Audited Costs as Percent of Submitted             96.44%              96,44%
       7 Net Reimbursement Amount: 5 x          e                           611,120            899,827
                                                                                               288,707

     «for reference only--excerpt of 8-13-2010 OIG Confirmation-" .. We have reviewed the support
     for the revised final MedIcare segment accrued liabilities of $3,997,528 as of 2/29f2008. We have
     determined the revised final liabilities for the Medicare segment appear to be reasonable We will
     adjust our final audit report to identify the final Medicare segment accrued liabilities of $3,997,528
     as of 2/29/2008. "))
